                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION


Office of Inspector General—Office of Audit




                                              NAPCA NEEDS TO IMPROVE OVERSIGHT OF
                                              SENIOR COMMUNITY SERVICE EMPLOYMENT
                                              PROGRAM




                                                               Date Issued: September 30, 2008
                                                               Report Number: 09-08-001-03-360
U.S. Department of Labor                              September 2008
Office of Inspector General
Office of Audit                                       NAPCA NEEDS TO IMPROVE OVERSIGHT OF
                                                      SENIOR COMMUNITY SERVICE EMPLOYMENT
                                                      PROGRAM
BRIEFLY…                                              WHAT OIG FOUND
Highlights of Report Number 09-08-001-03-360 to       We found that the RCF Executive Director was
the Deputy Assistant Secretary for Employment         engaged in program abuse by enrolling ineligible
and Training.                                         participants whose actual job training was
                                                      questionable. In addition, we found a landlord-
WHY READ THE REPORT                                   tenant relationship between the RCF Executive
NAPCA is a national non-profit organization that      Director (landlord) and NAPCA (tenant) created a
receives Senior Community Service Employment          financial conflict of interest that may have impaired
Program (SCSEP) grants to provide services to         NAPCA’s ability to perform its oversight functions
participants in seven states. SCSEP grant             without bias. Lastly, we estimate that NAPCA sub-
recipients, like NAPCA, provide subsidized            offices did not obtain required documentation to
community service work-based training for             support appropriate training for 382 (27 percent) of
unemployed low-income participants age 55 or          the 1,418 participants enrolled nation-wide during
older who have poor employment prospects.             January 1, 2005, through March 31, 2007. We
Participants are placed in host agencies providing    also estimate that the sub-offices did not ensure
community services, such as the Royal Cultural        enrollment eligibility for 64 (5 percent) of the 1,418
Foundation (RCF). This report discusses program       participants
abuse by the RCF Executive Director, a conflict of
interest between NAPCA and the Executive              WHAT OIG RECOMMENDED
Director, and NAPCA non-compliance with SCSEP         We recommended that the Deputy Assistant
requirements and Federal regulations.                 Secretary for Employment and Training require
                                                      NAPCA to: (1) reimburse ETA $182,178 in
WHY OIG CONDUCTED THE AUDIT                           questioned costs for improper payments to the four
The OIG conducted this audit in response to a         RCF participants; (2) develop policies and
hotline complaint alleging abuse of SCSEP at          procedures to prohibit conflicts of interest between
NAPCA’s Los Angeles sub-office. The audit             NAPCA and SCSEP host agencies; and
objectives were to answer the following questions:    (3) develop controls to effectively identify and
                                                      correct non-compliance with SCSEP enrollment,
(1) Did the RCF Executive Director abuse SCSEP        training, and program management requirements.
by enrolling ineligible participants and not
providing actual job training?                        HOW AUDITEE RESPONDED
                                                      NAPCA stated that it disagreed with our findings
 (2) Did NAPCA officials allow the alleged abuse to   and recommendations. However, NAPCA is
occur in exchange for monetary payments?              planning training and controls that will improve its
                                                      ability to effectively identify and correct non-
 (3) Did NAPCA’s oversight of SCSEP provide           compliance with SCSEP requirements.
reasonable assurance that enrollment and training
requirements were met?

READ THE FULL REPORT
To view the report, including the scope,
methodology, and full agency response, go to:

http://www.oig.dol.gov/public/reports/oa/2008/09-
08-001-03-360.
                              U.S. Department of Labor – Office of Inspector General




             This Page Intentionally Left Blank.




NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                                     Report No. 09-08-001-03-360
                                                            U.S. Department of Labor – Office of Inspector General




Table of Contents

Executive Summary ...................................................................................................... 1

Assistant Inspector General’s Report ......................................................................... 5
         Objective 1 – Did the RCF Executive Director abuse SCSEP by enrolling
            ineligible participants and not providing actual job training? ........................... 6
         Objective 2 – Did NAPCA officials allow the alleged abuse to occur in
            exchange for monetary payments? ................................................................. 8
         Objective 3 – Did NAPCA’s oversight of SCSEP provide reasonable
            assurance that enrollment and training requirements were met?.................. 11

Appendices.................................................................................................................. 19
         Appendix A Background ..................................................................................... 21
         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 23
         Appendix C Acronyms and Abbreviations .......................................................... 27
         Appendix D NAPCA Response to Draft Report .................................................. 29




                    NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                                                         Report No. 09-08-001-03-360
                              U.S. Department of Labor – Office of Inspector General




             This Page Intentionally Left Blank.




NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                                     Report No. 09-08-001-03-360
                                                  U.S. Department of Labor – Office of Inspector General




Executive Summary
The Office of Inspector General (OIG) conducted a performance audit in response to a
hotline complaint alleging officials of the National Asian Pacific Center on Aging
(NAPCA) allowed the Royal Cultural Foundation’s1 (RCF) Executive Director to enroll
ineligible participants in the Senior Community Service Employment Program (SCSEP)
in exchange for monetary payments. NAPCA is a national non-profit organization that
receives grants awarded through the Employment and Training Administration’s (ETA)
SCSEP. SCSEP grant recipients provide subsidized community service work-based
training for unemployed low-income participants age 55 or older who have poor
employment prospects. Participants are placed in non-profit or government host
agencies that provide community services. RCF is a host agency2.

The audit objectives were to answer the following questions:

1.    Did the RCF Executive Director abuse SCSEP by enrolling ineligible participants
      and not providing actual job training?

2.    Did NAPCA officials allow the alleged abuse to occur in exchange for monetary
      payments?

3.    Did NAPCA’s oversight of SCSEP provide reasonable assurance that enrollment
      and training requirements were met?

Results

1. The RCF Executive Director was engaged in program abuse. The RCF Executive
Director enrolled four ineligible participants in SCSEP during program years (PYs)3
1994-2005. The four participants included the RCF Executive Director’s mother and
father and two individuals that worked for the RCF Executive Director in non-SCSEP
positions.

The actual training received by the four participants is questionable because their
training and payroll records contained irregularities or were incomplete. Participant and
RCF supervisor signatures were photocopied, inconsistent, or missing in 498 (66
percent) of the 756 timesheets submitted for the four participants, including
36 timesheets submitted for a participant that had left the program. The participant
continued to receive SCSEP paychecks totaling $8,400. We question costs of


1
  Royal Cultural Foundation is located in Los Angeles, California.
2
  Host agencies are public or private non-profit organizations (e.g., schools, hospitals, senior citizen
centers, day-care centers) or government agencies which provide work sites and supervision for one or
more SCSEP participants.
3
  PY 1994-2005 covers the period, July 1, 1994, through June 30, 2006.

                 NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                                1                     Report No. 09-08-001-03-360
                                            U.S. Department of Labor – Office of Inspector General


$182,178 for improper payments made to the four RCF participants. We attribute the
abuse to misconduct by the RCF Executive Director and the four participants.

2. While we did not substantiate that NAPCA officials allowed the alleged abuse to
occur in exchange for monetary payments, we did identify a financial conflict of interest
between NAPCA and the RCF Executive Director that may have impacted NAPCA’s
ability to provide appropriate oversight of RCF. NAPCA leased office space from the
RCF Executive Director at below market rental rates from 1997 to 2005. During this
period, NAPCA performed only 45 percent of the monitoring visits of RCF required by
the grant agreement and only 28 percent of the monitoring visits required by NAPCA
policy. Moreover, NAPCA did not identify and correct the enrollment, training, and
payroll deficiencies noted in this report. We attribute this to NAPCA’s lack of policies
and procedures related to conflicts of interest, real or apparent. We were also told by
one RCF participant that he signed and returned his SCSEP paychecks to the RCF
Executive Director’s mother and received only a portion of each paycheck in cash.

3. NAPCA’s program oversight did not provide reasonable assurance that enrollment
and training requirements were met. Based on our statistical sample, we estimate that
NAPCA sub-offices did not obtain required documentation to support appropriate
training for 382 (27 percent) of the 1,418 participants enrolled nation-wide during
January 1, 2005, through March 31, 2007. We also estimate that the sub-offices did not
ensure enrollment eligibility for 64 (5 percent) of the 1,418 participants. These
conditions occurred because the sub-offices did not always conduct required host
agency monitoring visits or perform effective reviews of participant files to ensure
appropriate training and enrollment eligibility. Additionally, NAPCA headquarters did not
consistently conduct required on-site sub-office reviews or ensure corrective action
plans and follow-up efforts were effective.

Recommendations

We recommend that the Deputy Assistant Secretary for Employment and Training
require NAPCA to: (1) reimburse ETA $182,178 in questioned costs for improper
payments to the four RCF participants; (2) develop policies and procedures to prohibit
conflicts of interest between NAPCA and SCSEP host agencies; and (3) develop
controls to effectively identify and correct non-compliance with SCSEP enrollment,
training, and program management requirements.

NAPCA Response

The OIG provided a draft of this report to NAPCA for review and comment. We made
technical clarifications in the report where appropriate based on NAPCA’s response,
including clarifying the governing Federal regulations regarding SCSEP enrollment and
training requirements.

NAPCA did not agree with our recommendation to reimburse ETA $182,178 in
questioned costs for improper payments to the four RCF participants. NAPCA

              NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                             2                     Report No. 09-08-001-03-360
                                            U.S. Department of Labor – Office of Inspector General


contended that none of the participants was related to the RCF Executive Director in
place at the time of their enrollment. NAPCA also stated that each of the four
participants was eligible for enrollment in SCSEP because their files indicated legitimate
community service assignments and training. NAPCA also did not agree with our
recommendation to develop policies and procedures to prohibit conflicts of interest
between NAPCA and SCSEP host agencies. NAPCA stated that there was no
exchange of monetary payments and it had no financial conflict of interest with RCF.
While NAPCA acknowledged that the Royal Group owned the building in which both
RCF and NAPCA were housed, it noted that the Royal Group was a private organization
separate from RCF. NAPCA added that when it negotiated and signed the lease with
Royal Group, RCF operated under a different Executive Director.

NAPCA did not agree with our recommendation to develop controls to effectively
identify and correct non-compliance with SCSEP enrollment, training, and program
management requirements. However, NAPCA stated it will provide all of the NAPCA
national, sub-office, and host agency staff and SCSEP participants with refresher
courses on the purpose, goals, laws, Federal regulations and NAPCA policy governing
SCSEP. NAPCA is also recruiting a National Coordinator to assist in program oversight
and enhancing program performance. The National Coordinator will analyze program
performance, spending and progress towards meeting performance goals. If any areas
of deficiency are identified, a plan will be developed with each project site to address
and resolve any issues in a timely manner. Additionally, the Coordinator and the
National Director will ensure that all required national monitoring visits are conducted
and will ensure full compliance with SCSEP training, enrollment, program management
requirements specified in the Federal regulations, ETA/NAPCA grant agreement, and
NAPCA policy. The National Director and the National Coordinator will also be
responsible for ensuring that sub-offices are conducting the required host agency visits
and following the same procedures as the national office.

See Appendix D for NAPCA’s complete response to our draft report.

OIG Conclusion

Regarding NAPCA’s assertion that a nepotism violation did not occur, we maintain that
the RCF Executive Director was related to two of the four participants at the time of their
assignment to the host agency. Specifically, we found that the son of two participants
identified himself as the RCF Executive Director or Agency Director, as well as the Host
Agency Supervisor, on RCF’s initial SCSEP host agency application. In addition, the
son identified himself as a supervisor on his mother’s initial enrollment certification
(May 19, 1997) and his father’s community service assignment (June 30, 1997). As
stated earlier, the parents’ participation at RCF violated 1995 SCSEP Federal
regulations prohibiting participants from being related to persons engaged in a decision-
making capacity for a host agency.

As noted earlier, we did not substantiate NAPCA officials allowed the alleged abuse to
occur in exchange for monetary payments. We also agreed that Royal Group and RCF


              NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                             3                     Report No. 09-08-001-03-360
                                           U.S. Department of Labor – Office of Inspector General


were two separate entities. However, we found that during the lease period from 1997
to 2005, the same RCF Executive Director discussed in this report was also the
president and manager of the Royal Group. We maintain that a conflict of interest
between NAPCA and the RCF Executive Director existed and may have impacted
NAPCA’s ability to provide appropriate oversight of RCF.

NAPCA’s proposed corrective actions for Recommendation 3 are responsive to our
recommendations.




             NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                            4                     Report No. 09-08-001-03-360
                                                   U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                         Office of Inspector General
                                                 Washington, D.C. 20210


                             Assistant Inspector General’s Report


Mr. Brent R. Orrell
Deputy Assistant Secretary for
 Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

The Office of Inspector General (OIG) conducted a performance audit in response to a
hotline complaint alleging officials of the National Asian Pacific Center on Aging
(NAPCA) allowed the Royal Cultural Foundation’s4 (RCF) Executive Director to enroll
ineligible participants in the Senior Community Service Employment Program (SCSEP)
in exchange for monetary payments. NAPCA is a national non-profit organization that
receives grants awarded through the Employment and Training Administration’s (ETA)
SCSEP. SCSEP grant recipients provide subsidized community service work-based
training for unemployed low-income participants age 55 or older who have poor
employment prospects. Participants are placed in non-profit or government host
agencies that provide community services. RCF is a host agency.5

The audit objectives were to answer the following questions:

1.    Did the RCF Executive Director abuse SCSEP by enrolling ineligible participants
      and not providing actual job training?

2.    Did NAPCA officials allow the alleged abuse to occur in exchange for monetary
      payments?

3.    Did NAPCA’s oversight of SCSEP provide reasonable assurance that enrollment
      and training requirements were met?

We found that the RCF Executive Director was engaged in program abuse, resulting in
$182,178 in questioned costs for improper payments to RCF participants during
program years (PYs)6 1994-2005. These participants included the RCF Executive
Director’s parents and two participants working for the RCF Executive Director in non-
SCSEP positions. We were not able to validate that NAPCA staff received monetary
payments as alleged by the complainant. However, a landlord-tenant relationship
between the RCF Executive Director (landlord) and NAPCA (tenant) created a financial

4
  RCF is located in Los Angeles, California.
5
  Host agencies are public or private non-profit organizations (e.g., schools, hospitals, senior citizen
centers, day-care centers) or government agencies which provide work sites and supervision for one or
more SCSEP participants.
6
  PY 1994-2005 covers the period, July 1, 1994 through June 30, 2006.

                 NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                                5                     Report No. 09-08-001-03-360
                                                   U.S. Department of Labor – Office of Inspector General

conflict of interest that may have impacted NAPCA’s oversight of RCF. Additionally,
NAPCA’s program oversight did not ensure compliance with SCSEP enrollment and
training requirements. NAPCA sub-offices did not obtain required documentation to
support enrollment eligibility and appropriate training.

SCSEP is authorized under Title V of the Older Americans Act of 1965 and is
administered by ETA’s Office of Workforce Investment. Additional background
information is contained in Appendix A.

We conducted this performance audit in accordance with generally accepted
government auditing standards for performance audits. These standards require that
we plan and perform the audit to obtain sufficient and appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a sufficient basis for our findings and
conclusions based on our audit objectives. Our audit scope, methodology and criteria
are detailed in Appendix B.

Objective 1 – Did the RCF Executive Director abuse SCSEP by enrolling ineligible
participants and not providing actual job training?

Results and Findings – RCF Executive Director was engaged in program abuse.

We found that the RCF Executive Director was engaged in program abuse by enrolling
ineligible participants whose actual job training was questionable. All four of the
participants enrolled at the host agency were either related to the RCF Executive
Director or worked for the RCF Executive Director in non-SCSEP positions. In addition,
the actual training received by the participants was questionable because their payroll
records contained irregularities, and their training records were not completed as
required. The program abuse resulted in $182,178 in questioned costs for improper
payments to RCF participants.

RCF Participants Were Not Eligible for SCSEP Enrollment at the Host Agency

The hotline complainant alleged that RCF abused SCSEP because the host agency
was actually a building maintenance office managed by a family that owned the
building, three SCSEP participants assigned to RCF were members of the family
managing the building maintenance office, and the fourth participant was the building
janitor. We found this allegation to be substantially valid. We also found that the fourth
participant’s enrollment in SCSEP was not consistent with Federal regulations and
NAPCA policy.

Specifically, we determined that the RCF Executive Director’s mother and father
became SCSEP participants in 1997 and received SCSEP paychecks for about 8 years
(PYs 1996-2004), totaling approximately $97,000. Their SCSEP participation at RCF
violated Federal regulations7 prohibiting participants from being related to persons

7
    See 20 C.F.R. 641.323 effective 1995. 20 C.F.R. 641.841 effective 2004.

                  NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                                 6                     Report No. 09-08-001-03-360
                                                   U.S. Department of Labor – Office of Inspector General

engaged in a decision-making capacity for a host agency. Furthermore, the mother
worked as the building Secretary. Her work as a regular employee for the entire
building, including for-profit businesses, also violated Federal regulations and NAPCA
policy. SCSEP participants must work for non-profit, community service-focused
businesses or government agencies and cannot replace regular employee positions.

We were not able to validate that a third SCSEP participant with the same family name
was related to the RCF Executive Director. However, we determined that the
participant worked as an English as a Second Language (ESL) teacher at RCF and
received SCSEP paychecks for about 10 years (PYs 1994-20058), totaling
approximately $57,000. His SCSEP assignment for the 10 years was as an office
assistant. The teacher told us he was RCF’s ESL teacher during all 10 years and that
he did not receive any training from RCF. His work as a regular employee violated
Federal regulations.9

The building janitor was a SCSEP participant and received SCSEP paychecks for about
five years (PYs 2000-2004), totaling approximately $28,000. His SCSEP assignments
were as a maintenance supervisor and security guard trainee. He told us that during
the five-year period he was the building janitor and worked as the building security
guard on weekends. Additionally, he said he had worked as the building janitor for the
RCF Executive Director since 1993 and continued to work as the janitor after he was no
longer associated with SCSEP. His janitorial and security guard work as a regular
employee and for the entire building violated Federal law.

NAPCA management and staff told us they were not aware the RCF participants were
the RCF Executive Director’s mother, father, and RCF’s ESL teacher. The NAPCA staff
responsible for the janitor’s annual enrollment recertification told us she was aware of
his janitorial and security guard work for the entire building. However, she could not
explain why she continued to recertify the janitor’s enrollment.

Actual Participant Training Was Questionable

The actual training received by the four RCF participants was questionable because
their payroll records contained irregularities, and their training records were not
completed as required. We believe this questionable training is another indication of
program abuse by RCF.

Participant Payroll Records Contained Irregularities

Participant payroll records contained irregularities suggesting that the amount of training
received by the four RCF participants was questionable. NAPCA’s SCSEP Handbook,
provided to host agencies, defines SCSEP payroll requirements. The Handbook
requires that (1) participants record hours worked and sign their timesheets and (2) host
agency supervisors verify and sign all timesheets to ensure accuracy and completeness

8
    The teacher was not enrolled during PYs 2000 and 2002.
9
    See 20 C.F.R. 641.325 effective 1995. 20 C.F.R. 641.844 effective 2004.

                  NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                                 7                     Report No. 09-08-001-03-360
                                                         U.S. Department of Labor – Office of Inspector General

before submitting to NAPCA for payment. Properly completed timesheets provide
assurance that participants are involved in supervised training and paid for the hours
actually worked at the assigned host agency. We found the following payroll
irregularities during our review of RCF SCSEP activities:

     •   Four hundred ninety-eight (66 percent) of the 756 timesheets submitted by RCF
         for the four participants during their entire enrollment periods contained
         irregularities. The participant and RCF supervisor signatures were photocopied,
         inconsistent, or missing. NAPCA management told us that staff responsible for
         reviewing timesheets should have identified the copied and missing signatures
         and required original signatures on the timesheets.

     •   Thirty-six timesheets were submitted for a participant that had left the program.
         The teacher separated from SCSEP in November 1999. At that time, NAPCA
         claimed credit for placing the teacher in permanent employment at RCF as a
         teacher. The teacher re-enrolled in SCSEP in June 2001. During the intervening
         19 months, the teacher was not enrolled in SCSEP but continued to receive
         SCSEP paychecks totaling approximately $8,400. NAPCA management could
         not explain the discrepancy of dates on the re-enrollment paperwork.

Training Records Were Not Completed as Required

The actual training received by the participants was also questionable because training
records were not completed as required by Federal regulations, U.S. Department of
Labor (DOL) policy, and NAPCA policy. NAPCA was required under Federal
regulations10 to complete Individual Development Plans (IDPs)11 for all participants
upon enrollment and annually thereafter. Further, NAPCA policy requires host agencies
to complete annual Enrollee Performance Evaluations (EPEs)12 for each SCSEP
participant assigned to the host agency. Federal regulations and DOL policy require
that Community Service Assignments (CSAs)13 be updated at least once each year.
We found that the training records maintained by NAPCA for the four RCF participants
did not provide adequate assurance that the required work-based training actually
occurred. For example, the teacher’s records for the 10 years he was enrolled in
SCSEP did not contain any of the required documents. Table 1 summarizes the missing
training records for the four RCF participants.




10
   See 20 C.F.R. 641.309(d) effective 1995 and 20 C.F.R. 641.535 effective 2004.
11
   The IDP is used to establish the participant’s overall goals for the program and outlines a plan of action to achieve
those goals.
12
   An EPE is a host agency supervisor’s evaluation of a participant’s performance in such areas as quality of work,
ability to work independently, ability to assume responsibility, and general attitude.
13
   A CSA is completed by the host agency supervisor, participant, and project director to document the content of the
participant’s assignment and work schedule. The CSA is based upon the needs identified in the participants IDP.
Both federal regulations and the DOL grant agreement require the CSA to be updated as the IDP is updated.

                   NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                                  8                     Report No. 09-08-001-03-360
                                                       U.S. Department of Labor – Office of Inspector General

                                                  Table 1

                        Required Training Records Were Not Completed

                                   Total Years     Missing          Missing       Missing
                    Participants    Enrolled        IDPs             CSAs          EPEs
                    Mother              8             5                4             5
                    Father              8             6                5             5
                    Janitor             5             2                1             3
                    Teacher            10            10               10            10
                            Totals     31            23               20            23

Questioned Costs Totaled $182,178

We attribute the program abuse to misconduct by the RCF Executive Director and the
four participants. As a result of this program abuse, we question $182,178 for improper
payments to the four RCF participants. Table 2 summarizes the questioned costs by
participant and years enrolled.

                                                  Table 2

                                  Questioned Costs for
                  Improper Payments to RCF Participants Enrolled in SCSEP

                  Participant            Years Enrolled                   Questioned Costs
                  Mother                8 (PYs 1996-2004)                     $48,842
                  Father                8 (PYs 1996-2004)                     $48,092
                  Janitor               5 (PYs 2000-2004)                     $28,239
                  Teacher              10 (PYs 1994-2005)a                    $57,005
                                                      Total                  $182,17814
              a
               The teacher was not enrolled during PYs 2000 and 2002.



Objective 2 – Did NAPCA officials allow the alleged abuse to occur in exchange
for monetary payments?

Results and Findings – Conflict of interest between the RCF Executive Director
and NAPCA may have impaired NAPCA’s oversight of RCF.

We were not able to validate that NAPCA staff received monetary payments. However,
a landlord-tenant relationship between the RCF Executive Director (landlord) and
NAPCA (tenant) created a financial conflict of interest that may have impaired NAPCA’s
ability to perform its oversight functions without bias.



14
     Questioned costs rounded to the nearest dollar.

                    NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                                   9                     Report No. 09-08-001-03-360
                                                 U.S. Department of Labor – Office of Inspector General

Federal regulations15 prohibit grantees (such as NAPCA) from participating in the
administration of a contract supported by Federal funds if a conflict of interest, real or
apparent, is involved. Our conclusion that a conflict of interest existed between NAPCA
and the RCF Executive Director is based on the following facts:

         In June 1997, NAPCA became a tenant in the building owned by the RCF
          Executive Director. NAPCA’s lease agreement indicated that 1,334 rentable
          square feet of office space was being leased at a monthly rate of $950 per
          month, or approximately $0.71 per square foot. However, the lease agreement
          understated the square footage used by NAPCA by approximately 870 square
          feet. As such, NAPCA paid $0.43 per square foot as the actual lease rate.
          NAPCA management acknowledged that the square footage in the lease was
          understated. The understated lease initially saved NAPCA approximately $617
          per month (870 square feet X $0.71). NAPCA continued to lease office space
          from the RCF Executive Director at below market rental rates from 1997 to 2005.

         In May and June 1997, NAPCA allowed the enrollment of the RCF Executive
          Director’s mother and father as SCSEP participants. This occurred despite the
          fact that the father had signed another SCSEP participant’s timesheets as the
          participant’s supervisor for three years prior to becoming a participant himself.
          According to NAPCA management, the mother and father were assigned to RCF
          because the parents’ training needs matched the training RCF was able to
          provide. NAPCA management said that they were not aware of the family
          relationship and that neither RCF nor the parents requested the RCF
          assignments. NAPCA’s records showed the RCF Executive Director served as
          the initial supervisor responsible for his mother’s training. The mother and father
          initially received a combined total of about $860 per month in SCSEP pay.

         In March 2005, the RCF Executive Director’s parents were offered and declined
          reassignment to another host agency. RCF hired the parents and NAPCA
          claimed credit for the placement. In May 2005, the RCF Executive Director
          (NAPCA’s landlord) raised NAPCA’s lease rate by 150 percent. As a result,
          NAPCA moved to another location in August 2005.

This conflict of interest may have impaired NAPCA’s ability to perform its oversight
functions without bias. During the nine-year landlord-tenant relationship, NAPCA did
not provide adequate oversight of RCF and did not identify and correct the enrollment,
training, and payroll deficiencies noted in this report.

NAPCA’s oversight deficiencies included not conducting on-site monitoring visits as
required by the DOL/NAPCA grant agreement and NAPCA policy. On-site monitoring
visits include interviews with host agency staff and SCSEP participants, and reviews of
documentation supporting SCSEP compliance. The DOL/NAPCA grant agreement
required NAPCA to conduct at least one annual on-site monitoring visit at each host
agency to ensure compliance with SCSEP requirements. NAPCA’s policy required two

15
     See 29 C.F.R. Part 95.42, effective 1997.

                   NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                                 10                     Report No. 09-08-001-03-360
                                            U.S. Department of Labor – Office of Inspector General

annual on-site monitoring visits. During 1997 to 2005, NAPCA performed only 4, or 45
percent of the 9 monitoring visits required by the grant agreement; and only 5, or 28
percent of the 18 monitoring visits required by NAPCA policy.

NAPCA also did not take timely or appropriate corrective action when notified of RCF’s
improper activities. The janitor and a former SCSEP participant assigned to NAPCA
told us that they notified NAPCA management of improper activities by RCF in 2001
and 2003, respectively, but NAPCA did not take any corrective action. For example, the
janitor told us that the RCF Executive Director’s mother required him to sign and return
his SCSEP paychecks to her, after which she gave him only a portion of each paycheck
in cash. The janitor said he complained to NAPCA staff in 2001 that he was receiving
only a portion of his SCSEP salary and that the RCF Executive Director’s mother was
taking the rest of the money. NAPCA management denied ever being approached with
this information.

We verified that 88 percent of the janitor’s SCSEP paychecks during his five-year
enrollment (PYs 2000 - 2004) were endorsed and deposited by a company owned by
the RCF Executive Director or by the RCF Executive Director himself. NAPCA
management told us that SCSEP paychecks are intended only for the SCSEP
participant to whom the check is made payable. NAPCA management also told us a
SCSEP paycheck deposited into the account of a party directly associated with the
assigned host agency would be considered highly inappropriate. They stated they
would have no way of knowing if a SCSEP paycheck was deposited into the account of
a party directly associated with the assigned host agency.

While our audit did not substantiate the allegation that NAPCA staff received cash
payments from RCF, we did find that NAPCA had a financial conflict of interest that may
have impaired its oversight of RCF. We attribute this to NAPCA’s lack of policies and
procedures related to conflicts of interest, real or apparent.

Objective 3 – Did NAPCA’s oversight of SCSEP provide reasonable assurance
that enrollment and training requirements were met?

Results and Findings – NAPCA’s program oversight did not ensure compliance
with SCSEP training and enrollment requirements.

We conducted audit work at four randomly selected NAPCA sub-offices (Chicago, Los
Angeles, New York, and San Francisco). Based on our statistical sample of participants
enrolled (see Appendix B), we estimate that NAPCA sub-offices did not obtain required
documentation to support that it provided appropriate training for 382 (27 percent) of the
1,418 participants enrolled nationwide during January 1, 2005, through March 31, 2007.
We also estimate that the sub-offices did not ensure enrollment eligibility for 64 (5
percent) of the 1,418 participants. These conditions occurred because the sub-offices
did not conduct required host agency monitoring visits or perform thorough participant
file reviews to ensure SCSEP compliance. Additionally, NAPCA headquarters did not
perform required sub-office reviews or ensure corrective action plans and follow-up
efforts were effective.

              NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                            11                     Report No. 09-08-001-03-360
                                                        U.S. Department of Labor – Office of Inspector General



NAPCA Controls Did Not Ensure Appropriate SCSEP Training

NAPCA did not ensure appropriate SCSEP training. Federal regulations required
NAPCA to provide SCSEP participants work-based training at non-profit or government
community service-focused host agencies. NAPCA was required by Federal
regulations to document this training by completing Individual Employment Plans (IEP)
for all participants upon enrollment and twice a year thereafter.16 Further, NAPCA policy
required host agencies to complete annual EPEs for each SCSEP participant assigned
to the host agency. Federal regulations and DOL policy require that CSAs be updated
at least once each year.

We statistically sampled 131 of the 1,418 nationwide participants enrolled in SCSEP by
NAPCA during January 1, 2005, to March 31, 2007. We tested participant files to
determine whether NAPCA obtained the required IEPs, CSAs, and EPEs. We found
that the NAPCA sub-offices did not obtain required training documentation for 35
participants (27 percent). Projecting our statistical sample results to the 1,418 nation-
wide participants, we estimate that the sub-offices did not obtain required training
documentation for 382 participants; and that as many as 576 (41 percent) did not have
the required documentation.17

NAPCA Controls Did Not Ensure SCSEP Enrollment Eligibility

NAPCA also did not consistently ensure participant enrollment eligibility. Federal
regulations and/or NAPCA policy required NAPCA to obtain documentation supporting
that each participant (1) had income at or below 125 percent of the United States
poverty level, (2) was eligible to work in the United States, and (3) did not hold an
administrative or directorship position within the assigned host agency.18

We tested the files for our statistical sample of 131 participants to determine whether
NAPCA obtained the required eligibility documentation. We found that NAPCA did not
obtain the required documentation for 8 participants (6 percent). Projecting our
statistical sample results to the 1,418 nationwide participants, we estimate that NAPCA
did not obtain the required documentation for 64 participants (5 percent), and that as
many as 119 (8 percent) did not have required documentation.19




16
   Federal grantees were required to complete IEPs for SCSEP participants twice a year effective May 10, 2004.
17
   Our sample was based on a 95 percent confidence level with a targeted sampling precision of approximately 7
percent.
18
   Documentation accepted by NAPCA for income include: tax returns, Social Security statements, NAPCA’s
Confidential Income Statement form, and NAPCA’s Self-Certification form; for eligibility to work in the United States:
Department of Homeland Security’s Form I-9, “Employment Eligibility Verification”; for Administrative or Directorship
Positions: participant and host agency make a declaration on their respective agreements each year that there will be
no assignment of participants who hold such positions within the host agency.
19
   Our sample was based on a 95 percent confidence level with a targeted sampling precision of approximately 7
percent.


                  NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                                12                     Report No. 09-08-001-03-360
                                              U.S. Department of Labor – Office of Inspector General

Controls Over Enrollment and Training Need Improvement

Inadequate NAPCA controls over participant training and enrollment increased the
potential for future non-compliance and program abuse. The non-compliance noted in
this report occurred because NAPCA sub-offices did not consistently conduct required
host agency monitoring visits or perform thorough reviews of participant and host
agency files. Additionally, NAPCA headquarters did not consistently perform required
sub-office reviews or ensure corrective action plans and follow-up efforts were effective.

Host Agency Monitoring Visits Were Not Conducted As Required

NAPCA records showed that, during PY 2005, NAPCA sub-offices did not conduct host
agency monitoring visits as required by Federal regulations and NAPCA policy. See
Table 3. The DOL/NAPCA grant agreement required NAPCA to conduct at least one
annual on-site monitoring visit at each host agency to ensure compliance with SCSEP
requirements. NAPCA’s policy required two annual on-site monitoring visits. On-site
monitoring visits include interviews with host agency staff and SCSEP participants and
reviews of documentation supporting SCSEP compliance.

                                            Table 3

                          NAPCA Sub-Offices Did Not Conduct
                         Required Host Agency Monitoring Visits
                                       (PY 2005)

                             Grant Agreement                         NAPCA Policy
                          Annual                               Annual
   Sub Office            Required        Missed               Required         Missed
                          Visits          Visits               Visits           Visits
                            (1)                                  (2)
   Chicago                   8           0 (0%)                   16               7 (44%)
   Los Angeles              10           2 (20%)                  20               10 (50%)
   New York                 15           4 (27%)                  30               12 (40%)
   San Francisco            11           2 (18%)                  22               4 (18%)
           Totals           44           8 (18%)                  88               33 (38%)

Sub-office Monitoring Visits Were Not Effective

NAPCA records also showed that NAPCA headquarters did not conduct sub-office
monitoring visits as required by the ETA/NAPCA grant agreement. The grant agreement
required NAPCA headquarters to conduct at least 1 annual on-site monitoring visit at
each sub-office to ensure the sub-offices effectively managed SCSEP. Table 4 shows
that NAPCA headquarters did not conduct 25 percent of the sub-office monitoring visits
required during PYs 2004-2006.




                NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                              13                     Report No. 09-08-001-03-360
                                                    U.S. Department of Labor – Office of Inspector General

                                                  Table 4

                     NAPCA Headquarters Did Not Conduct 25 Percent of
                          Required Sub-Office Monitoring Visits
                                    (PYs 2004-2006)

                                     Required           Missed              PY With
                  Sub-Office          Visitsa           Visits            Missed Visits
                  Chicago                 3                0 (0%)              -
                  Los Angeles             3               2 (67%)         2004, 2005
                  New York                3                0 (0%)              -
                  San Francisco           3               1 (33%)            2004
                          Totals          12              3 (25%)       2004(2), 2005(1)
              a
               The grant agreement requires 1 monitoring visit per program year, totaling 3 visits for PYs
              2004-2006.

While NAPCA headquarters identified some enrollment and training documentation
deficiencies during its sub-office monitoring visits, recommendations and follow-up
efforts were not effective in correcting these documentation deficiencies identified
during this three-year period. Improved supervisory oversight is needed to ensure
participants are enrolled and trained in accordance with Federal regulations, the
ETA/NAPCA grant agreement, and NAPCA policy. NAPCA Headquarters should
identify systemic problems and develop appropriate corrective action. Moreover,
NAPCA Headquarters should follow up on action items and specific documentation
deficiencies to ensure effective implementation.

NAPCA Response

NAPCA stated that the wages paid to the four participants were not improper because
none of the participants was related to the RCF Executive Director in place at the time
of their assignment to the host agency. Therefore, NAPCA did not violate SCSEP
nepotism regulations. As soon as NAPCA was informed of a relationship by DOL
program staff, NAPCA staff acted immediately to correct the situation by transferring the
two participants involved and informing ETA of the outcome which was accepted by
program staff. NAPCA also stated that each of the four participants was eligible for
enrollment in SCSEP because their files indicated legitimate community service
assignments and training. Specifically, NAPCA asserted that the individual referred to
as teacher in this report was actually a “teaching assistant” whose training assignments
included assistant teaching, ESL teaching, and administrative training, and that these
duties were appropriate and valid under the 1995 SCSEP regulations. In addition, while
NAPCA agreed that the janitor worked as a security guard on the weekends for the
Royal Group20, it did not believe that this affected his enrollment eligibility under the
governing SCSEP Federal regulations. According to NAPCA, the rule to be
unemployed did not go into effect until PY 2005 in response to the Solicitation for Grant
Applications issued in 2005, which is after the janitor terminated from the program.
20
     The RCF Executive Director was the president and manager of the Royal Group.

                    NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                                  14                     Report No. 09-08-001-03-360
                                            U.S. Department of Labor – Office of Inspector General



NAPCA stated that there was no exchange of monetary payments and it had no
financial conflict of interest with RCF. While NAPCA acknowledged that the Royal
Group owned the building in which both RCF and NAPCA were housed, it noted that the
Royal Group was a private organization separate from RCF. NAPCA asserted it
searched for the lowest possible rent at the time and remained a tenant in the building
owned by the Royal Group until the local economy was revitalized at which time,
NAPCA moved to a smaller office. NAPCA added that when it negotiated and signed
the lease with Royal Group, RCF operated under a different Executive Director.

NAPCA stated it will provide training to national, sub-office and host agency staff, as
well as SCSEP participants. All of the NAPCA national, sub-office, and host agency
staff, including host agency directors and supervisors, and SCSEP participants will be
provided with refresher courses on the purpose, goals, laws, Federal regulations and
NAPCA policy regarding SCSEP. NAPCA will emphasize the importance of developing
and updating IEPs; documentation of required SCSEP information, such as yearly
recertifications, etc.; the monitoring of sub-offices and host agencies; the development
of corrective action plans; and the importance of following through on corrective action.
Training materials will be developed within the next three months.

NAPCA is also recruiting a National Coordinator to assist in program oversight and
enhancing program performance. The National Coordinator will analyze program
performance, spending and progress towards meeting performance goals. If any areas
of deficiency are identified, a plan will be developed with each project site to address
and resolve any issues in a timely manner. Additionally, the Coordinator and the
National Director will ensure that all required national monitoring visits are conducted
and will ensure full compliance with SCSEP training, enrollment, program management
requirements specified in the Federal regulations, ETA/NAPCA grant agreement, and
NAPCA policy. The National Director and the National Coordinator will also be
responsible for ensuring that sub-offices are conducting the required host agency visits
and following the same procedures as the national office.

NAPCA also asserted that we inaccurately applied the governing May 2004 Federal
regulations to preceding program years, holding NAPCA to an incorrect standard. For
example, NAPCA said the OIG incorrectly indicated that the IEPs for the RCF
participants had to be completed twice a year, when they were known as IDPs at the
time and required to be completed only once a year.

Moreover, NAPCA refuted our conclusion that the actual training of the RCF participants
was questionable because payroll and training records contained irregularities or were
incomplete. According to NAPCA, many of the alleged training records the OIG claimed
were missing were found in participant files, not host agency files.




              NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                            15                     Report No. 09-08-001-03-360
                                                 U.S. Department of Labor – Office of Inspector General

OIG Conclusion

Regarding NAPCA’s assertion that a nepotism violation did not occur, we maintain that
the RCF Executive Director was related to two of the four participants at the time of their
assignment to the host agency. Specifically, we found that the son of two of the
participants identified himself as the RCF Executive Director or Agency Director, as well
as the Host Agency Supervisor, on the RCF’s initial SCSEP host agency application.
RCF became a host agency in 1994. The RCF Executive Director’s mother and father
became SCSEP participants in 1997. The son was also identified as a supervisor on
his mother’s initial enrollment certification (May 19, 1997) and his father’s community
service assignment (June 30, 1997). As stated earlier, the parents’ participation at RCF
violated 1995 SCSEP Federal regulations21 prohibiting participants from being related to
persons engaged in a decision-making capacity for a host agency. While NAPCA
indicated that it took immediate corrective action as soon as it was alerted, this violation
was not identified by NAPCA and continued for eight years. With regard to the
“teaching assistant,” we found that this individual was the RCF’s only teacher for about
10 years and did not receive any training from RCF. While we do not dispute the
appropriateness of this community service assignment, we maintain that it is in violation
of SCSEP maintenance of effort regulations22 which prohibit a participant from filling a
position that would otherwise be given to a paid staff employee. We also disagree with
NAPCA’s assertion that the janitor’s outside employment as a security guard for the
Royal Group was allowable up to PY 2005. The Older Americans Act Amendments of
2000 which required SCSEP participants to be unemployed became effective
November 13, 200023, prior to the janitor’s SCSEP enrollment. As such, NAPCA’s
response did not change our findings and recommendations.

As noted earlier, we did not substantiate NAPCA officials allowed the alleged abuse to
occur in exchange for monetary payments. We also agreed that Royal Group and RCF
were two separate entities. However, we found that during the lease period from 1997
to 2005, the same RCF Executive Director discussed in this report was also the
president and manager of the Royal Group. We maintain that a conflict of interest
between NAPCA and the RCF Executive Director existed and may have impacted
NAPCA’s ability to provide appropriate oversight of RCF.

NAPCA also asserted that we inaccurately applied the governing Federal regulations to
preceding program years, holding NAPCA to an incorrect standard. We continue to
maintain that we accurately and appropriately applied the Older Americans Act
Amendments of 2000 and 1995 Federal regulations in our assessment of the enrollment
eligibility and appropriate assignment and training of the four RCF participants, as well
as the annual IDP completions for the RCF participants as required.

While NAPCA noted in its response that it found a number of missing records identified
in the report, it did not provide any documentation with the exception of one monitoring

21
   See 20 C.F.R. 641.323(a).
22
   See 20 C.F.R. 641.325.
23
   See Title V of the Older Americans Act Amendments of 2000, Section 502(a)(1).

                NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                              16                     Report No. 09-08-001-03-360
                                            U.S. Department of Labor – Office of Inspector General

report to change our results. We adjusted our report accordingly for the one report
provided. We provided NAPCA with a detailed description of the missing records in a
Statement of Facts on April 9, 2008.

Recommendations

We recommend that the Deputy Assistant Secretary for Employment and Training
require NAPCA to:

   1. Reimburse ETA $182,178 in questioned costs for the improper payments to the 4
      RCF participants who did not meet SCSEP enrollment and training requirements.

   2. Develop policies and procedures to prohibit conflicts of interest between NAPCA
      and SCSEP host agencies. This includes assuring that no conflicts of interest
      between these parties currently exist.

   3. Develop controls to identify and correct non-compliance with SCSEP training,
      enrollment, and program management requirements specified in Federal
      regulations, the ETA/NAPCA grant agreement, and NAPCA policy. This includes
      NAPCA conducting the required host agency and sub-office monitoring visits and
      developing procedures for appropriate corrective action and follow-up when
      program deficiencies are brought to management’s attention.




Elliot P. Lewis




              NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                            17                     Report No. 09-08-001-03-360
                              U.S. Department of Labor – Office of Inspector General




             This Page Intentionally Left Blank.




NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                              18                     Report No. 09-08-001-03-360
                                   U.S. Department of Labor – Office of Inspector General




Appendices




     NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                   19                     Report No. 09-08-001-03-360
                              U.S. Department of Labor – Office of Inspector General




             This Page Intentionally Left Blank.




NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                              20                     Report No. 09-08-001-03-360
                                            U.S. Department of Labor – Office of Inspector General


                                                                                   Appendix A
Background

General Background

SCSEP is authorized under Title V of the Older Americans Act of 1965 and is
administered by ETA’s Office of Workforce Investment. SCSEP grant recipients provide
subsidized community service work-based training for unemployed low-income persons
age 55 or older who have poor employment prospects. Participants are placed at non-
profit or government host agencies that provide community services. Host agencies
include schools, hospitals, senior citizen centers, literacy instruction programs, nutrition
programs, beautification projects, conservation projects, restoration projects, and day-
care centers. DOL requires that 30 percent of SCSEP participants are placed in
permanent, unsubsidized employment each program year.

SCSEP funding for PY 2006 was approximately $433 million. SCSEP grants are
allocated by formula: 78 percent are provided to 18 national organizations that compete
to provide services and 22 percent are allocated among the States. SCSEP enrolls
approximately 92,000 participants per year.

NAPCA is headquartered in Seattle, WA and operates nine sub-offices in seven States
(California, Illinois, Massachusetts, New York, Pennsylvania, Texas and Virginia). As of
March 31, 2007 (the end of our review period), there were 292 active NAPCA host
agencies nationwide. NAPCA received SCSEP grants totaling about $4.6 million in FY
2006. These grants enabled NAPCA to provide subsidized employment for 837
participants.

Hotline Complaint Background

On February 11, 2005, the OIG received a hotline complaint containing allegations
against NAPCA, the host agency RCF, four participants, and the owner of the building
known as the “Royal Plaza Building.” The hotline complainant alleged that RCF abused
SCSEP because the host agency was actually a building maintenance office managed
by a family that owned the building; three SCSEP participants assigned to RCF were
members of the family managing the building maintenance office, and the fourth
participant was the building janitor. The complainant also alleged that NAPCA allowed
the RCF Executive Director to enroll ineligible participants in SCSEP in exchange for
monetary payments

NAPCA Monitoring Controls

NAPCA has two principal monitoring controls in place to ensure compliance with
SCSEP regulations. These include (1) annual sub-office monitoring visits and (2) semi-
annual host agency monitoring visits.




              NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                            21                     Report No. 09-08-001-03-360
                                            U.S. Department of Labor – Office of Inspector General


Annual Sub-Office Monitoring Visits

NAPCA is required to conduct a monitoring visit of each of its nine sub-offices on an
annual basis. NAPCA’s grant agreements with DOL require that a monitoring visit be
made to each local SCSEP project a minimum of once every project year unless, due to
indications of poor project performance, a corrective action monitoring visit is warranted.
Four to 6 weeks in advance of the monitoring visit, the monitor requests a sample of
project files to be sent to NAPCA headquarters for review. NAPCA returns the files to
the site as soon as the review is complete. Once on site, the monitor conducts a file
review to determine if all necessary forms and information are collected consistently.
The review may include up to 20 enrollee and host agency files.

During the site visit, the monitor is required to meet with 6 to 8 host agency supervisors
and up to 10 enrollees. A standardized two-page interview is conducted with the host
agency supervisors. These interviews are focused on the supervisor’s evaluation
methods, their attempts to train and help the enrollees in job seeking, as well as any
suggestions they may have for improvement. A standardized two-page interview is also
conducted with the enrollees. These interviews attempt to garner information such as
the enrollee’s job seeking efforts, levels of satisfaction, and any suggestions they may
have for improvement.

Semiannual Host Agency Monitoring Visits

NAPCA is also required to conduct two monitoring visits of its host agencies per year.
NAPCA policies and procedures state that the SCSEP project director must visit each
host agency twice a year, and that one of the two visits is unannounced. Standardized
interviews are conducted with host agency supervisors and participants. Interviews with
host agency supervisors attempt to determine supervisors’ understanding of SCSEP
regulations, and in particular, how they contribute to participant training, identify
participants’ strengths and weaknesses, and handle timesheets. Interviews with
participants relate to what participants have learned at the assigned host agency,
whether they understand and follow their assignment descriptions, and efforts
undertaken to obtain unsubsidized employment.

In addition to these two monitoring controls, NAPCA organizes a number of meetings
and training conferences which serve to reinforce SCSEP rules and regulations. These
include monthly conference calls between NAPCA’s National SCSEP Director and sub-
office project directors; quarterly participant meetings, semi-annual host agency
supervisory staff meetings, and annual NAPCA in-service training sessions for NAPCA
headquarters and sub-office staff. NAPCA also participates in periodic DOL regional
training conferences.




              NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                            22                     Report No. 09-08-001-03-360
                                            U.S. Department of Labor – Office of Inspector General


                                                                                   Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

The audit was initiated by a hotline complaint that NAPCA officials allowed the RCF
Executive Director to enroll ineligible participants in SCSEP in exchange for monetary
payments. Based on our preliminary results, we expanded our scope to determine
whether NAPCA effectively ensured compliance with SCSEP enrollment and training
requirements as well as Federal law governing fraud, waste, and abuse. Specifically,
the audit objectives were to answer the following questions:

1.   Did the RCF Executive Director abuse SCSEP by enrolling ineligible participants
     and not providing actual job training?

2.   Did NAPCA officials allow the alleged abuse to occur in exchange for monetary
     payments?

3.   Did NAPCA’s oversight of SCSEP provide reasonable assurance that enrollment
     and training requirements were met?

Scope and Methodology

We only tested those management controls necessary to address our audit objectives.
We conducted this performance audit in accordance with generally accepted
government auditing standards for performance audits. These standards require that
we plan and perform the audit to obtain sufficient and appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a sufficient basis for our finding and
conclusions based on our audit objectives.

Objectives 1 and 2

To accomplish our objectives, we performed audit work to determine whether
allegations contained in the hotline complaint were valid. First, we obtained an
understanding of NAPCA’s administration of SCSEP by reviewing and analyzing
NAPCA’s grant agreements and policies and procedures pertaining to the allegations in
conjunction with applicable Federal laws and regulations. Second, we conducted
interviews and obtained process walkthroughs from NAPCA’s Executive Director,
National SCSEP Director, Federal Project Officer, NAPCA’s Los Angeles sub-office
program management and staff, and two former RCF participants. Third, we reviewed
RCF host agency and participant records and other documentation for SCSEP
compliance.

To verify allegations of program abuse, we tested RCF host agency and participant
records covering PYs 1994-2005 for adherence to SCSEP nepotism, enrollment, and


              NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                            23                     Report No. 09-08-001-03-360
                                                  U.S. Department of Labor – Office of Inspector General


training requirements. We also worked with the Department of Labor Office of Labor
Racketeering and Fraud Investigation and reviewed public records to determine both
whether a family relationship existed between the RCF Executive Director and two RCF
participants; and whether the Royal Plaza building was owned by the RCF Executive
Director. In addition, we reviewed lease agreements (1997-2005) between Royal Group
and NAPCA for rental of office space and available market rate information to determine
whether a conflict of interest may have existed. We further reviewed RCF participant
payroll records to compute disallowable funds; and analyzed timesheets and participant
paychecks to uncover irregularities.

We interviewed the hotline complainant and NAPCA management to determine the
basis of the allegation regarding NAPCA staff receiving monetary payments.

To determine if the allegation that NAPCA had knowledge of this program abuse and
did not pursue corrective action had merit, we interviewed NAPCA program staff and
former participants, and performed testing of RCF host agency and participant records.

We interviewed NAPCA officials based in both Seattle and Los Angeles to determine
the level of oversight provided by NAPCA and management’s perceptions of any issues.
We also reviewed and analyzed information documenting management oversight of
RCF. This information included monitoring reports, internal audit reports, and quality
reviews.

We conducted site visits at NAPCA’s national headquarters in Seattle, WA, and
NAPCA’s Los Angeles sub-office.

Objective 3

To accomplish our objective, we conducted interviews and process walkthroughs with
NAPCA’s Executive Director and National SCSEP Director, sub-office program
management and staff, a NAPCA monitor, and representatives of and participants
assigned to host agencies.

Our review of records covered the period January 1, 2005, through March 31, 2007.24
We statistically sampled participant and host agency files and tested various attributes
directly related to this audit objective. The basic sample design was a three-stage
stratified cluster sampling plan. In the first stage, the universe containing all 9 NAPCA
sub-offices managing 292 host agencies (active as of March 31, 2007) and enrolling
1,418 SCSEP participants (during January 1, 2005 through March 31, 2007) was
divided into two strata – high and low risk sub-offices. Stratification of sub-offices was
based on a number of risk factors, including the ratio of 501(c)(3) to government host
agencies, and the ratio of host agencies to sub-office staff members. Two sub-offices
were randomly selected from each stratum for a total of four sub-offices. In the second
stage, NAPCA’s host agencies were similarly stratified based on risk and 34 host

24
  We also reviewed records from March 22, 1994, to March 31, 2007, to quantify the dollar effect of the
enrollment of participants assigned to RCF.

                NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                              24                     Report No. 09-08-001-03-360
                                            U.S. Department of Labor – Office of Inspector General


agencies were randomly selected from the four sub-offices. Finally, in the third stage, a
random sample of 131 participants was selected from each of the 34 selected host
agencies. This sample of 131 participants is representative of the entire universe of
1418 participants. We concluded that this sample size of 131 participants was sufficient
to reach a targeted sampling precision of roughly 7 percent at a 95 percent confidence
level.

Our sample selection was based on data maintained in NAPCA’s participant and host
agency database. During the audit, we assessed the reliability of the data for the period
January 1, 2005, through March 31, 2007. We reviewed 100 percent of the data and
eliminated any duplicated entries. We then judgmentally selected several entries and
compared the data to information maintained by the NAPCA sub-offices visited. The
data tested were reliable. As such, we concluded that the NAPCA database was
sufficiently reliable to accomplish this audit objective.

Site Visits

We conducted site visits at NAPCA’s headquarters in Seattle, WA and four NAPCA sub-
offices located in Los Angeles, San Francisco, Chicago and New York.

We reviewed both host agency and sub-office monitoring reports (January 1, 2005 to
March 31, 2007 for host agency and PYs 2004-2006 for sub-office) in conjunction with
requirements outlined in NAPCA’s policy and grant agreements for compliance
purposes.

We tested the controls associated with NAPCA’s process for ensuring compliance with
SCSEP enrollment and training requirements. We conducted fieldwork from May 2007
through May 2008 and performed our work in accordance with generally accepted
government auditing standards for performance audits.

Criteria

      Title V of the Older Americans Act of 1965 (Public Law 89-73), Community
       Service Employment for Older Americans
      Title V of the Older Americans Act Amendments of 2000
      20 C.F.R. Part 641, Senior Community Service Employment Program, Final
       Rule, April 2004
      29 C.F.R. Part 95, Grants and Agreements with Institutions of Higher Education,
       Hospitals, and Other Non-Profit Organizations, Final Rule
      Workforce Investment Act of 1998 (Public Law 105-220)
      U.S. Code: Title XVIII, Section 665, Theft or Embezzlement from Employment
       and Training Funds, January 2006
      NAPCA SCSEP Handbook, 2004
      Grant Agreements from July 1, 2004, through July 31, 2007




              NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                            25                     Report No. 09-08-001-03-360
                              U.S. Department of Labor – Office of Inspector General




             This Page Intentionally Left Blank.




NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                              26                     Report No. 09-08-001-03-360
                                         U.S. Department of Labor – Office of Inspector General


                                                                                Appendix C
Acronyms and Abbreviations

C.F.R.     Code of Federal Regulations

CSA        Community Service Agreement

DOL        U.S. Department of Labor

EPE        Enrollee Performance Evaluation

ESL        English as a Second Language

ETA        Employment and Training Administration

IDP        Individual Development Plan

IEP        Individual Employment Plan

NAPCA      National Asian Pacific Center on Aging

OAA        Older Americans Act

OIG        Office of Inspector General

PY         Program Year

RCF        Royal Cultural Foundation

SCSEP      Senior Community Service Employment Program




           NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                         27                     Report No. 09-08-001-03-360
                              U.S. Department of Labor – Office of Inspector General




             This Page Intentionally Left Blank.




NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                              28                     Report No. 09-08-001-03-360
                                         U.S. Department of Labor – Office of Inspector General


                                                                                Appendix D
NAPCA Response to Draft Report




           NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                         29                     Report No. 09-08-001-03-360
                              U.S. Department of Labor – Office of Inspector General




NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                              30                     Report No. 09-08-001-03-360
                              U.S. Department of Labor – Office of Inspector General




NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                              31                     Report No. 09-08-001-03-360
                              U.S. Department of Labor – Office of Inspector General




NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                              32                     Report No. 09-08-001-03-360
                              U.S. Department of Labor – Office of Inspector General




NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                              33                     Report No. 09-08-001-03-360
                              U.S. Department of Labor – Office of Inspector General




NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                              34                     Report No. 09-08-001-03-360
                              U.S. Department of Labor – Office of Inspector General




NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                              35                     Report No. 09-08-001-03-360
                              U.S. Department of Labor – Office of Inspector General




NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                              36                     Report No. 09-08-001-03-360
                              U.S. Department of Labor – Office of Inspector General




NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                              37                     Report No. 09-08-001-03-360
                              U.S. Department of Labor – Office of Inspector General




NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                              38                     Report No. 09-08-001-03-360
                              U.S. Department of Labor – Office of Inspector General




NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                              39                     Report No. 09-08-001-03-360
                              U.S. Department of Labor – Office of Inspector General




NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                              40                     Report No. 09-08-001-03-360
                              U.S. Department of Labor – Office of Inspector General




NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                              41                     Report No. 09-08-001-03-360
                              U.S. Department of Labor – Office of Inspector General




NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                              42                     Report No. 09-08-001-03-360
                              U.S. Department of Labor – Office of Inspector General




NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                              43                     Report No. 09-08-001-03-360
                              U.S. Department of Labor – Office of Inspector General




NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                              44                     Report No. 09-08-001-03-360
                              U.S. Department of Labor – Office of Inspector General




NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                              45                     Report No. 09-08-001-03-360
                                           U.S. Department of Labor – Office of Inspector General




IN ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:         http://www.oig.dol.gov/hotlineform.htm
Email:          hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address:        Office of Inspector General
                U.S. Department of Labor
                200 Constitution Avenue, N.W.
                Room S-5506
                Washington, D.C. 20210



             NAPCA Needs to Improve Oversight of Senior Community Service Employment Program
                                           46                     Report No. 09-08-001-03-360
